          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
          Opportunities to Improve the
          Federal Acquisition Service’s
          City Pair Program Through Data Analysis,
          Report Number A110065/Q/9/P12002
          Dated January 20, 2012
          Assignment Number A130078
          July 2, 2013




A130078
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             July 2, 2013
 TO:               Thomas A. Sharpe, Jr.
                   Commissioner, Federal Acquisition Service (Q)

 FROM:



                   Perla Corpus
                   Audit Manager
                   Pacific Rim Field Audit Office (JA-9)
 SUBJECT:          Implementation Review of Corrective Action Plan: Opportunities to
                   Improve the Federal Acquisition Service’s City Pair Program Through
                   Data Analysis, Report Number A110065/Q/9/P12002
                   Dated January 20, 2012

                   Assignment Number A130078

We have completed an implementation review of Federal Acquisition Service (FAS)
management’s actions taken in response to recommendations contained in the subject
audit report, dated January 20, 2012 (See Appendix A). The objective of our review
was to determine whether FAS has taken corrective actions, as outlined in its Action
Plan. To accomplish our objective we:

   •     Reviewed FAS’s Action Plan, dated March 7, 2012, and related documentation
         submitted in support of the action plan; and
   •     Requested and obtained additional supporting documentation and data from the
         Director of the City Pair Program.

Our implementation review determined that FAS addressed the audit report
recommendations.

If you have any questions regarding this report, please contact Eric Madariaga, Auditor-
in-Charge, at (415) 522-2730/eric.madariaga@gsaig.gov or me at (415) 522-2733/
perla.corpus@gsaig.gov.

On behalf of the audit team, I would like to thank you and your staff for your assistance
in this implementation review.



A130078                                  1
Background

On January 20, 2012, we issued audit report, Opportunities to Improve the Federal
Acquisition Service’s City Pair Program Through Data Analysis to FAS. In the report,
we noted that FAS manages the Government’s City Pair Program, which provides
discounted air transportation services to federal travelers. Total air travel expenditures,
for all agencies in fiscal year 2011, were nearly $3 billion. Under the City Pair Program,
FAS awards competitive contracts for air transportation services between specified
destinations (called City Pairs or markets) based on the best overall value to the
Government. The number of City Pairs has grown from 11 in 1980 to over 5,000 in
2013. The objective of our audit was to determine whether FAS is missing opportunities
to improve the City Pair Program.

Our audit uncovered several improvement opportunities that could potentially save the
Government $35.2 million, including:

   •   Obtaining and analyzing comprehensive government-wide travel data;
   •   Performing in-depth analyses of travel benefits;
   •   Eliminating the traveler’s option of choosing between dual fares when lower
       contract fares are available;
   •   Increasing competition among airlines;
   •   Including baggage fees in the bid evaluation process; and
   •   Revising benchmarks for measuring program value.

For FAS to achieve such savings, we recommended that the FAS Commissioner:

   1. Identify and overcome the limitations of the data sources and analyze available
      data to better manage the City Pair Program.
   2. Clarify benefits of last seat availability in the City Pair Program materials to
      overcome the confusion that exists among federal travelers.
   3. Perform cost benefit analyses to determine the savings associated with the
      stated City Pair Program benefits and whether the savings warrant their
      continued emphasis as benefits to the program.
   4. Modify the E-Gov Travel System so that the option to choose the higher priced
      contract fare is eliminated when a lower priced contract fare (known as a _CA
      fare) is available.
   5. Address how FAS will increase competition in monopoly markets and how FAS
      will encourage more bid participation from airlines.
   6. Implement baggage expenses as a technical factor in bid evaluation or provide
      justification/analysis for not including baggage in the evaluation.
   7. Revise the current method of determining benchmarking data for purposes of
      evaluating the City Pair Program with regards to program savings and price
      negotiation.

While the FAS Commissioner reserved comment on the audit report recommendations,
he indicated that FAS would develop action plans to address each of them.


A130078                                  2
Results

Our implementation review determined that FAS has taken appropriate and corrective
actions to address the seven recommendations. Therefore, no further action is
required.




A130078                              3
Appendix A – Action Plan for Report Number A110065/Q/9/P12002




A130078                            A-1
Appendix A – Action Plan for Report Number A110065/Q/9/P12002 (cont.)




A130078                            A-2
Appendix A – Action Plan for Report Number A110065/Q/9/P12002 (cont.)




A130078                            A-3
Appendix A – Action Plan for Report Number A110065/Q/9/P12002 (cont.)




A130078                            A-4
Appendix A – Action Plan for Report Number A110065/Q/9/P12002 (cont.)




A130078                            A-5
Appendix A – Action Plan for Report Number A110065/Q/9/P12002 (cont.)




A130078                            A-6
Appendix A – Action Plan for Report Number A110065/Q/9/P12002




A130078                            A-7
Appendix B – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Acting Deputy Commissioner, Federal Acquisition Service (Q)

Federal Acquisition Service Chief of Staff (Q)

Federal Acquisition Service Controller (BF)

Assistant Commissioner, Office of Travel, Motor Vehicles, and Card Services (QM)

Director, Travel and Transportation Services (QMC)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (QB0A)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130078                                B-1
